                  UNITED STATES DEPARTMENT OF EDUCATION

                                 OFFICE OF INSPECTOR GENERAL

                                      61 FORSYTH STREET, Room 18T71 

                                         ATLANTA, GEORGIA 30303


Telephone: (404) 562-6470                                                                          Fax: (404) 562-6509


Memorandum

DATE:            August 15, 2003

TO:              Theresa S. Shaw
                 Chief Operating Officer
                 Federal Student Aid

FROM:            J. Wayne Bynum               s/J. Wayne Bynum
                 Regional Inspector General for Audit
                 Region IV

SUBJECT:         Final Audit Report
                 Alcorn State University’s Administration of Title IV Student Financial
                 Assistance Programs Needs Strengthening
                 Control Number ED-OIG/A04-B0018


You have been designated as the action official responsible for the resolution of the findings and 

recommendations in the attached final report. We have also provided a copy to the auditee and 

to your Audit Liaison Officer. 


The Office of Inspector General is required to review and approve your proposed Program

Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is 

forwarded to the auditee. Please provide these documents for review, electronically if you wish 

or by mail, to: 


                 J. Wayne Bynum

                 Regional Inspector General, Region IV 

                 U.S. Departmen of Education 

                 Office of Inspector General 

                 61 Forsyth Street, Room 18T71 

                 Atlanta, GA 30303 


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector 

General is required to report to Congress twice a year on the number of audits unresolved. In 

addition, any report unresolved afer 180 days from the date of issuance will be shown as overdue 

in our reports to Congress. 




   Our mission is to promote the efficient and effective use of taxpayer dollars in support of American education.
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
          Alcorn State University’s Administration of Title IV

      Student Financial Assistance Programs Needs Strengthening 





                                  FINAL AUDIT REPORT 





                                            ED-OIG/A04-B0018 

                                               August 2003




Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                              Office of Inspector General
Department’s programs and operations.                            Atlanta, Georgia
Statements that managerial practices need improvements, as well as 

other conclusions and recommendations in this report, represent the 

   opinions of the Office of Inspector General. Determinations of

    corrective action to be taken will be made by the appropriate 

                  Department of Education officials. 



   In accordance with the Freedom of Information Act (5 U.S.C. 

    § 552), reports issued by the Office of Inspector General are 

 available, if requested, to members of the press and general public 

    to the extent information contained therein is not subject to 

                        exemptions in the Act.

                                           TABLE OF CONTENTS


                                                                                                                   Page

EXECUTIVE SUMMARY .....................................................................................................1 

AUDIT RESULTS ...................................................................................................................3 


     Finding No. 1 – ASU Failed to Pay Refunds Correctly to Students Who 

                     Officially Withdrew ................................................................................3 

     Recommendations ..............................................................................................................6


     Finding No. 2 – ASU Did Not Always Return or Timely Return Direct Loan 

                     and Pell Refunds to the Department .....................................................7

     Recommendations ..............................................................................................................8 


     Finding No. 3 – ASU Did Not Have a System in Place to Identify Students Who 

                     Did Not Follow Official Withdrawal Procedures.................................9

     Recommendations ............................................................................................................10 


     Finding No. 4 – ASU Did Not Timely Disburse Direct Loan Drawdowns or 

                     Timely Return Excess Cash ................................................................11

     Recommendations ............................................................................................................13 


     Finding No. 5 – ASU Did Not Reconcile Direct Loan Funds on a Monthly Basis .....14

     Recommendations ............................................................................................................15 


     Finding No. 6 – ASU Did Not Properly Handle Credit Balances on Student 

                     Accounts................................................................................................15

     Recommendations ............................................................................................................17 


     Finding No. 7 – ASU Did Not Always Meet Administrative Capability Standards 

                     for Title IV Programs ..........................................................................18

     Recommendations ............................................................................................................19 


OTHER MATTERS ..............................................................................................................20 

BACKGROUND ....................................................................................................................20 

OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................21

STATEMENT ON MANAGEMENT CONTROLS...........................................................22 


ATTACHMENT – ASU’s RESPONSE TO THE DRAFT REPORT...............................23 





ED-OIG/A04-B0018                                         FINAL REPORT                                                 Page i 

                             EXECUTIVE SUMMARY


Alcorn State University (ASU) in Lorman, Mississippi, is a State-supported university that was
founded in 1871. The purpose of this audit was to determine whether ASU administered the
student financial assistance programs in accordance with Title IV of the Higher Education Act of
1965, as amended (HEA), and applicable regulations. Specifically, we determined whether ASU
administered the student financial assistance programs in compliance with the Title IV
regulations regarding (1) the calculation and payment of William D. Ford Federal Direct Loan
(Direct Loan) and Federal Pell Grant (Pell) program refunds; (2) Direct Loan cash management,
reporting, and reconciliation; (3) student credit balances; (4) student eligibility; and
(5) commissioned sales. Audit coverage generally included school fiscal years 1998-1999,
1999-2000, and 2000-2001. ASU received $39.6 million in FSEOG, Pell, and Direct Loan funds
during these school years.

When students who receive Title IV financial aid withdraw from school, institutions are required
to calculate and return any refunds due to the Department of Education (Department). ASU did
not identify and calculate refunds for 39 students who officially withdrew from school, and it did
not calculate refunds correctly for 103 of the 110 students who were identified as officially
withdrawn from school.

ASU also did not always send refunds to the Department, and the refunds that were returned
were not always returned in a timely manner. Of the 114 refunds we reviewed, 39 were not
returned and 73 were not returned within the required timeframe. In addition, ASU did not
determine the withdrawal date and process refunds for students who unofficially withdrew
(dropped out of school).

Direct Loan funds are to be disbursed to students within three business days following the date
the funds are received from the Department, and any excess cash (funds not disbursed within
three business days) is to be promptly returned to the Department. Over 60 percent of the
disbursements we reviewed were issued more than three business days after the drawdown of
funds, and excess cash was not promptly returned to the Department.

ASU also did not maintain Title IV funds in an interest-bearing account, reconcile Direct Loan
funds on a monthly basis, or remit all Title IV credit balances to students.

Institutions must demonstrate that they are capable of administering the Title IV programs.
Based on the problems identified during this audit, we concluded that ASU did not always meet
the Title IV administrative capability standards. We attributed the problems identified primarily
to the lack of adequate policies, procedures, and controls.

Among other recommendations, we recommend that the Chief Operating Officer for Federal
Student Aid (FSA) require ASU to develop and implement policies, procedures, and
management controls to ensure that—




ED-OIG/A04-B0018                        FINAL REPORT                          Page 1 of 31
• 	 Students who withdraw or drop out are identified, and refunds are accurately calculated and
    returned to the Department;
• 	 Direct Loan funds are disbursed within three business days, and any excess cash is promptly
    returned to the Department; and
• 	 Direct Loan funds are reconciled on a monthly basis.

We also recommend that the Chief Operating Officer of FSA require ASU to—
• 	 Return $34,970 in refunds for the 39 students for whom ASU did not calculate a refund;
• 	 Return $48,416 in refunds which ASU did not pay as a result of inaccurate refund
    calculations;
• 	 Calculate and pay applicable refunds to the Department for students who received Title IV
    funds and withdrew unofficially, during and after award year 1998-1999;
• 	 Pay imputed interest costs to the Government totaling $247,064 for excess cash retained for
    award years 1998-1999, 1999-2000, and 2000-2001; and
• 	 Maintain Title IV funds in an interest-bearing bank account, and calculate and pay any lost
    interest as a result of not maintaining Title IV funds in an interest-bearing account from
    award year 1998-1999 to date.

In addition, based on our findings, we recommend that the Chief Operating Officer of FSA place
ASU on the reimbursement method of payment, change ASU’s origination level for Direct Loans
to standard origination, and take appropriate action under 34 C.F.R. Part 668, Subpart G, to fine
ASU or to terminate, suspend, or limit ASU’s participation in the Title IV programs.

ASU provided written comments to the draft audit report. In general, ASU did not disagree with
our findings, but it did disagree with some of our recommendations. We summarized ASU’s
comments after each finding and included them in their entirety as an attachment to this report.




ED-OIG/A04-B0018 	                      FINAL REPORT                         Page 2 of 31
                                   AUDIT RESULTS


Our audit objectives were to determine whether ASU administered the student financial
assistance programs in compliance with the Title IV regulations regarding (1) the calculation and
payment of Direct Loan and Pell refunds; (2) Direct Loan cash management, reporting, and
reconciliation; (3) student credit balances; (4) student eligibility; and (5) commissioned sales.

We did not identify compliance problems with student eligibility and commissioned sales.
However, we identified problems with the calculation and payment of Direct Loan and Pell
refunds, Direct Loan cash management and reconciliation, and student credit balances. Based on
the significance of these findings, we concluded that ASU did not always meet the administrative
capability standards for Title IV programs.

Finding No. 1 – ASU Failed to Pay Refunds Correctly to Students Who
                Officially Withdrew
ASU did not identify and calculate refunds for all students who officially withdrew from school
and did not correctly calculate refunds for students who were identified as withdrawn. There
was inadequate coordination between the office responsible for identifying withdrawn students
and the office responsible for calculating refunds. The office responsible for refunds also used
incorrect enrollment periods to calculate refunds. ASU did not have written refund procedures
during award years 1998-1999 and 1999-2000, and the refund procedures initiated for award
year 2000-2001 were inadequate. ASU did not calculate refunds, totaling $34,970, for 39
students. In addition, refunds for 103 students were calculated incorrectly, resulting in $48,416
in refunds not returned to the Department.

Institutions are required to calculate returns of Title IV funds for students who withdraw
according to the procedures in 34 C.F.R. § 668.22 (2000). Amended regulations to implement
the return of Title IV requirements of the Higher Education Amendments of 1998 were published
in the Federal Register on November 1, 1999. Institutions were not required to implement these
new requirements until October 7, 2000, although institutions could choose to implement them
earlier. ASU implemented the new refund procedure at the beginning of the fall semester in
August 2000. We used the appropriate refund calculation depending on when the refund was
made. In this report, we use the term refund to refer to any refund or other return of Title IV,
HEA program funds required under 34 C.F.R. § 668.22, regardless of the date of the return.

ASU Did Not Identify and Calculate Refunds for 39 Students

ASU procedures required students who wanted to withdraw from school to submit a Notification
of Total Withdrawal form to the Office of Academic Affairs. The Office of Academic Affairs
was to forward a copy of the withdrawal form to the Business Office, which was responsible for
calculating refunds.



ED-OIG/A04-B0018                         FINAL REPORT                         Page 3 of 31
A comparison of the Office of Academic Affairs’ list of withdrawn students to the withdrawal
forms retained by the Business Office revealed discrepancies in the number of withdrawn
students recorded by the two offices. In some instances, the Business Office had no withdrawal
forms for some students identified by the Office of Academic Affairs as withdrawn. In other
instances, the Business Office had withdrawal forms for students, but the Office of Academic
Affairs did not identify them as withdrawn. There were also some students that both offices
recorded as withdrawn, but the Business Office had not calculated refunds. Based on these
findings, we concluded that there was inadequate coordination between the two offices.
Table 1.1 illustrates the results of our review by award year.

     Table 1.1: Number of Withdrawn Students Requiring a Refund Calculation
                             Withdrawn Students By Award Year
                           1998-1999     1999-2000      2000-2001     TOTALS
        Total official
        withdrawals
      requiring refund
         calculations         50            45             54            149
        Total refunds
     calculated by ASU        31*           27             52            110

          Difference                   19                  18                   2                 39
     *ASU calculated a refund of $0 for 4 of the 31 students. The amount owed is included in Tables 1.3 and 1.4.

ASU did not calculate Title IV refunds for 39 students that its records showed as having
withdrawn during award years 1998-1999, 1999-2000, and 2000-2001. As a result, $34,970 in
refunds was not returned to the Department. A breakdown of the amounts owed by Title IV
program for the 39 students is shown in Table 1.2.

        Table 1.2: Refunds Owed for the 39 Withdrawn Students
        Award Year       FDUL*        FDSL**     PELL FSEOG***                                TOTAL
         1998-1999          $3,328       $8,649   $4,739      $290                             $17,006
          1999-2000                  $1,456         $ 6191       $9,072             $611       $17,330
          2000-2001                  $ 397          $ 237            $0               $0       $ 634
                                                                                Total          $34,970
         *Federal Direct Unsubsidized Loan. **Federal Direct Subsidized Loan. 

         ***Federal Supplemental Educational Opportunity Grant.


ASU Did Not Calculate Refunds Correctly

As shown in Table 1.1, ASU calculated refunds for 110 withdrawn students during award years
1998-1999, 1999-2000, and 2000-2001. A review of these refunds revealed that ASU used
incorrect starting and ending dates to calculate refunds. ASU did not always use the actual
semester start/end dates to calculate refunds. For example, some refund calculations were based
on the date the dormitory opened rather than the semester start date. ASU also did not exclude



ED-OIG/A04-B0018                              FINAL REPORT                                Page 4 of 31
its spring break period to determine the total number of days of enrollment for award year
2000-2001. As a result, 103 of the 110 refund calculations were incorrect.

Table 1.3 shows the amount of Title IV aid that ASU should have returned to the Department,
the amount that it actually returned, and the difference for each award year. Table 1.4 shows the
refund amounts owed by Title IV program.

  Table 1.3: Refunds Owed as a Result of Incorrect Calculations or Failure to Pay
   Award Year                                  DIRECT LOAN           PELL         TOTAL
    1998-1999       Should have returned                $18,293      $ 7,516         $25,809
                      Amount returned*                  $ 9,435         $0**         $ 9,435
                          Difference                    $ 8,858      $ 7,516         $16,374
    1999-2000       Should have returned                $16,401      $11,125         $27,526
                     Amount returned**                       $0            $0              $0
                          Difference                    $16,401      $11,125         $27,526
    2000-2001       Should have returned                $38,075      $17,102         $55,177
                       Amount returned                  $37,541      $13,120         $50,661
                          Difference                    $ 534        $ 3,982         $ 4,516
                       Total Difference                 $25,793      $22,623         $48,416
  *Based on ASU’s original refund calculations. 

   ** For $35,042 of the amounts we identified, ASU calculated but did not return refunds. 


     Table 1.4: Refunds Owed by Program as a Result of Incorrect Calculations
      Award      FDUL* FDSL** FPLUS*** PELL FSEOG**** TOTALS
       Year
     1998-1999    $1,941   $ 6,900       $ 17 $ 7,516                $0     $16,374
     1999-2000      $3,285     $12,724          $392    $11,125                $0     $27,526
     2000-2001      $ 254      $    280            $0   $ 3,982                $0     $ 4,516
                                                                       Total          $48,416
    *Federal Direct Unsubsidized Loan. **Federal Direct Subsidized Loan.
    ***Federal Direct PLUS Loan. ****Federal Supplemental Educational Opportunity Grant.

ASU should have returned the $22,623 in Pell refunds and the $25,793 in Direct Loan refunds to
the Department. As a result of a refund finding in ASU’s Single Audit Report for the year ended
June 30, 1999, issued by the Mississippi State Auditor, FSA instructed ASU to recalculate its
1998-1999 refunds. We found that most of these recalculations were inaccurate.

ASU Overpaid Refunds for Some Students

ASU made duplicate refunds for some students. ASU returned Direct Loan refunds totaling
$16,008 in excess of our refund calculations for 25 withdrawn students. ASU also paid Pell
refunds totaling $830 in excess of our refund calculations for five withdrawn students.

ASU did not have written refund procedures during award years 1998-1999 and 1999-2000.
Although ASU established written procedures during award year 2000-2001, the procedures


ED-OIG/A04-B0018                          FINAL REPORT                         Page 5 of 31
were not adequate to ensure that refunds were correctly calculated and that unearned funds were
returned to the Department. For example, the written procedures did not provide for returning
unearned Title IV funds to the Department in the order specified in 34 C.F.R. § 668.22(i) (2000)
(i.e., first Direct Loans, then Pell, and then FSEOG program aid).

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA—

1.1 	 Require ASU to develop and implement policies, procedures, and management controls to
      ensure that withdrawn students are identified and that Title IV refunds are calculated
      accurately and returned to the Department.

1.2 	 Require ASU to return $34,970 in Title IV refunds for the 39 students for whom ASU did
      not calculate a refund.

1.3 	 Require ASU to return $48,416 in Title IV refunds that ASU did not calculate correctly, or
      calculated but failed to pay, for award years 1998-1999 ($16,374), 1999-2000 ($27,526),
      and 2000-2001 ($4,516). (Some of the recommended recovery amount (the amount ASU
      failed to pay, $35,042 of the $48,416) is also included in the amounts for Recommendation
      2.2.)

1.4 	 Calculate and require ASU to pay imputed interest costs for the $34,970 and $48,416 in
      Title IV refunds that were not returned to the Department.

ASU RESPONSE
In its written response to the draft report (see attachment), ASU stated that it had strengthened its
policies, procedures, and management controls between divisions to ensure that withdrawn
students are identified and that Title IV refunds are calculated accurately and returned to the
Department. ASU agreed to return Title IV funds totaling $83,386 for incorrect refund
calculations of students withdrawn or refunds not calculated. ASU requested that the imputed
interest costs be waived because this finding has been corrected and all measures will be taken to
ensure that future refunds are calculated according to the current policy. ASU stated that
personnel involved in the process will receive annual training to ensure knowledge of
regulations, and the University’s Internal Auditor will review the process.

OIG COMMENTS
We appreciate ASU’s efforts to strengthen its policies, procedures, and management controls to
identify withdrawn students and return Title IV funds. The written policy ASU provided with its
response should ensure that it identifies borrowers who officially withdraw, if implemented.
However, the written policy does not appear to include sufficient detail to ensure that refunds are
calculated accurately or to ensure that the school returns funds to the Department as required.




ED-OIG/A04-B0018 	                        FINAL REPORT                          Page 6 of 31
We have not revised our recommendations. By not properly returning Title IV refunds in the
past, as the principal balances of borrower accounts were not reduced, and additional interest
continued to accrue, students were harmed. If the interest is not paid by ASU, the Department
may have to reimburse the borrower for accrued interest under the refund discharge provisions of
34 C.F.R. § 685.216.

Finding No. 2 – ASU Did Not Always Return or Timely Return Direct Loan
                and Pell Refunds to the Department
ASU did not always send refunds to the Department and the refunds that were returned were not
returned in a timely manner. ASU did not have adequate refund procedures to ensure that
refunds were submitted, or submitted within the required timeframe. As a result, 39 refunds
were not returned, and 73 refunds were not returned within the required timeframe.

The regulations at 34 C.F.R. § 668.22(h)(2)(iv)1 state, “The amount of the Title IV, HEA
program portion of the refund allocated to the Title IV, HEA programs . . . must be returned to
the appropriate program account or accounts by the institution within 30 days of the date that the
student officially withdraws, is expelled, or the institution determines that a student has
unofficially withdrawn.” A similar requirement is provided for refunds returned after July 1,
2000, in 34 C.F.R. § 668.22(j)(1) (2000).

Chapter 7 of the 1998-1999 Direct Loan School Guide provided guidance on reporting Direct
Loan adjustments to the Department. According to the guide, Option 1 schools such as ASU are
to “send adjustment records reflecting the adjustment to the Loan Origination Center.”

For award year 1998-1999, ASU sent Direct Loan refunds to the Department for 16 students, and
all 16 refunds were over 60 days late. ASU did not return 10 Pell refunds for this award year to
the Department. During award year 1999-2000, there was no evidence that Direct Loan and Pell
refunds were sent to the Department for any of the 27 students who withdrew. For award year
2000-2001, all 39 Direct Loan refunds and 18 of the 20 Pell refunds were sent to the Department
late. Table 2.1 below illustrates the lack of timeliness for refunds sent to the Department. Of the
114 refunds, 39 were not made and 73 were made late. (The information in Table 2.1 represents
the number of refunds, not students. Since some students received both Direct Loan and Pell
refunds, the totals in Table 2.1 may not correspond to the totals in tables for Finding No. 1.)




1
    Unless otherwise noted, all C.F.R. citations are to the July 1, 1998, volume. 



ED-OIG/A04-B0018                                    FINAL REPORT                      Page 7 of 31 

 Table 2.1: Untimely Refunds Sent to the Department
                        Award Year              Award Year                                   Award Year
                         1998-1999               1999-2000                                    2000-2001
                   Direct                    Direct                                      Direct
 Days Late          Loan          Pell        Loan         Pell                          Loan         Pell
 Timely Refunds       0                                                                    0            2
 1 to 60              0                                                                   16            4
 61 to 120            9         10 Pell      18 Direct Loan and                            4            7
 120 to 180           0       Refunds not      11 Pell refunds                             9            6
 181 to 240           3         made*            not made *                                9            1
 241 to 300           4                                                                    1            0
 Total
 Refunds made        16                                                                    39               20
*For award year 1998-1999, ASU did not return Pell refunds for 10 students who withdrew. For award year 1999-
2000, ASU did not return 18 Direct Loan refunds and 11 Pell refunds for 27 students who withdrew. We
determined that the refunds for these students totaled $35,042 ($7,516 for 1998-1999 Pell; $16,401 for 1999-2000
Direct Loan; and $11,125 for 1999-2000 Pell).

As of January 2002, ASU had not submitted Direct Loan refund adjustment records to the Loan
Origination Center (LOC) for 16 students who withdrew during award year 1998-1999. ASU
refunded $10,354 to the LOC for the 16 students who received Direct Loan funds ($9,435 in
under-refunds and a $919 over-refund for nine students). However, ASU did not send any
disbursement adjustment records to the LOC that reflected the change in loan amounts disbursed
as a result of the refunds made. If proper adjustment records are not submitted to the LOC,
students could be charged incorrect loan interest and may overpay their loans.

Due to staff turnover and a lack of procedures, ASU calculated refunds but did not always
process them for payment. ASU had no written refund procedures in place during award years
1998-1999 and 1999-2000, and only limited refund procedures during award year 2000-2001.
Without adequate procedures and controls in place, there was no assurance that unearned
Title IV funds were properly returned and reported to the Department in a timely manner.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA—

2.1 	 Require ASU to develop and implement policies, procedures, and management controls to
      ensure that Title IV refunds are made within the 30-day required timeframe and correctly
      reported to the Department.

2.2 	 Require ASU to return $35,042 in Title IV refunds that ASU calculated, but failed to pay
      for award years 1998-1999 ($7,516) and 1999-2000 ($27,526). (These recommended
      recovery amounts are also included in the amounts for Recommendation 1.3.)

2.3 	 Require ASU to submit the proper Direct Loan adjustment records to the LOC for the
      16 students who withdrew during award year 1998-1999.



ED-OIG/A04-B0018 	                             FINAL REPORT                               Page 8 of 31
2.4 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G, to fine ASU or terminate,
      suspend, or limit the participation of ASU in the Title IV programs as a result of not
      returning and not timely returning Direct Loan and Pell refunds to the Department.

ASU RESPONSE
In its written response to the draft report (see attachment), ASU stated that it had strengthened its
policies, procedures, and management controls to ensure that Title IV refunds are made within
the 30-day required timeframe and correctly reported to the Department. ASU stated that it
would return Title IV funds for refunds calculated but not paid in response to
Recommendation 1.3. ASU also said it would submit the proper Direct Loan adjustment records
to the LOC for the 16 students who withdrew during award year 1998-1999. ASU requested that
no action be taken to fine, terminate, suspend, place on reimbursement, or limit its participation
in the Title IV programs. ASU stated that it had implemented the current refund policy and had
signed up key personnel from the financial aid office and the business office to receive additional
training through the Department of Education.

OIG COMMENTS
We appreciate ASU’s efforts to strengthen its policies, procedures, and management controls to
ensure that Title IV refunds are made within the 30-day required timeframe and correctly
reported to the Department. However, we have not revised our recommendations. The written
policy ASU provided with its response does not appear to include sufficient details about
timeframes for actions to ensure that it meets Departmental requirements regarding Title IV
refunds.

Finding No. 3 – ASU Did Not Have a System in Place to Identify Students
                Who Did Not Follow Official Withdrawal Procedures
Although ASU had a system to identify students who officially withdrew from school, it did not
have a system to identify and report to the Business Office those students who withdrew without
following the established withdrawal procedures (dropped out of school). As a result, ASU did
not determine the withdrawal date and process Title IV refunds for students who unofficially
withdrew from school.

The regulations at 34 C.F.R. § 668.22(j)(2) (2000) state—

       An institution must determine the withdrawal date for a student who 

       withdraws without providing notification to the institution no later than 

       30 days after the end of the earlier of the— 

       (i) 	 Payment period or period of enrollment, as appropriate . . . ;
       (ii) 	 Academic year in which the student withdrew; or
       (iii) Educational program from which the student withdrew.

A similar requirement is provided for refunds calculated prior to July 1, 2000, in
34 C.F.R. § 668.22(j)(3).


ED-OIG/A04-B0018 	                        FINAL REPORT                          Page 9 of 31
We requested ASU to identify withdrawn students who did not officially notify the school during
award years 1998-1999, 1999-2000, and 2000-2001. To estimate students who unofficially
withdrew, ASU reviewed school records and identified those students who had a grade point
average of zero and were no longer in school. ASU identified 140 students for award year
1999-2000 and 135 students for award year 2000-2001, for a total of 275 students who
unofficially withdrew during these periods. ASU did not provide any information for 1998-
1999. According to ASU’s Financial Aid Director, approximately 73 percent of the students
enrolled during the 2000-2001 academic year received Title IV funds. Using this percentage, we
estimated that approximately 200 of the students who withdrew during these award years might
need a refund calculation (73 percent of 275 is approximately 200).

Since ASU did not have a system to identify students who did not officially notify the school of
their withdrawal, there was no assurance that the Department’s funds were properly protected
and that disbursed funds were returned for withdrawn students.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA require ASU to—

3.1 	 Develop and implement policies, procedures, and management controls to identify students
      who do not officially notify the school of their withdrawal, and determine whether Title IV
      refunds are due the Department.

3.2 	 Calculate and pay applicable Title IV refunds to the Department for students who received
      Title IV funds and unofficially withdrew from school since award year 1998-1999. The
      Chief Operating Officer should require verification of this calculation by an independent
      public accountant.

ASU RESPONSE
ASU stated that it had developed and implemented policies, procedures, and management
controls to identify students who do not officially notify the school of their withdrawal, and
determine whether Title IV refunds are due to the Department. ASU stated that it would
calculate and pay applicable Title IV refunds to the Department for students who received
Title IV funds and unofficially withdrew from school since award year 1988-1999 and have the
calculations verified by an independent public accountant.

OIG COMMENTS
We appreciate ASU’s efforts to strengthen its policies, procedures, and management controls to
identify all student withdrawals and determine whether Title IV refunds are due to the
Department. The actions ASU described in its response should help ensure that it meets
Departmental requirements for unofficially withdrawn students who received Title IV funds, if
implemented.



ED-OIG/A04-B0018 	                      FINAL REPORT                        Page 10 of 31
Finding No. 4 – ASU Did Not Timely Disburse Direct Loan Drawdowns or
                Timely Return Excess Cash
ASU did not timely disburse Direct Loan drawdowns to students or timely return excess cash to
the Department. ASU did not have written policies and procedures or controls to ensure that
Direct Loan drawdowns were timely disbursed to student accounts or to ensure that excess cash
was promptly returned to the Department. As a result, over 60 percent of the disbursements we
reviewed were disbursed more than three business days after the drawdown of Title IV funds
from the Department, and the excess cash was not promptly returned to the Department. We
estimated imputed interest to the Government totaling $247,064 as a result of not returning
excess cash in a timely manner. In addition, ASU did not maintain Title IV funds in an interest-
bearing account.

The regulations at 34 C.F.R. § 668.166(a)(1) state—

       The Secretary considers excess cash to be any amount of title IV, HEA
       program funds, that an institution does not disburse to students or parents by
       the end of the third business day following the date the institution received
       those funds from the Secretary. Except as provided in paragraph (b) of this
       section [for excess cash tolerances], an institution must return promptly to the
       Secretary any amount of excess cash in its account or accounts.

Under 34 C.F.R. § 668.163(c)(2), “an institution must maintain Direct Loan, Federal Pell Grant,
FSEOG, and FWS [Federal Work Study] program funds in an interest-bearing bank account or
an investment account as described in [34 C.F.R. § 668.163(c)(1)].”

Direct Loan Drawdowns Were Not Timely Disbursed to Students

We reviewed a judgmental sample of 10 of 167 drawdowns for award year 1998-1999 and a
judgmental sample of 4 of 137 drawdowns for award year 2000-2001. For the sampled
drawdowns, we obtained the Actual Disbursement Roster that lists student loans to be disbursed
and selected a judgmental sample of loan disbursements to trace from the roster to student
accounts, to test the timeliness of disbursements.

The review of loan disbursements revealed that ASU did not disburse all Direct Loan funds
within three business days. Funds were disbursed from 1 to 146 days past the time allowed. Of
the 133 untimely disbursements in award year 1998-1999, 126 were disbursed between 1 and 30
days late, and of the 90 untimely disbursements in award year 2000-2001, 82 were disbursed
between 1 and 30 days late. In addition, some of the loan funds that were not disbursed to
students were not returned to the LOC. Table 4.1 illustrates the results of our review of the 10 of
167 drawdowns for 1998-1999 and 4 of 137 drawdowns for 2000-2001.




ED-OIG/A04-B0018                         FINAL REPORT                        Page 11 of 31
       Table 4.1: Loan Disbursements Review Results
     Award Year                                                1998-1999          2000-2001
     Universe of anticipated loan disbursements in                   2,127               3,034
     drawdown sample
     Sample of anticipated loan disbursements                            214                141
     Loans disbursed more than three business days                       133                90
     after drawdown                                                   (62%)              (64%)
     Dollar amount of loans disbursed more than
     three business days after drawdown                            $105,617           $148,272

In addition, we selected a judgmental sub-sample of 42 of the 214 and 70 of the 141 sampled
anticipated loan disbursements, to test the return of excess cash. Table 4.2 illustrates the results
of this review.

       Table 4.2: Loan Disbursements Review Results
     Award Year                                                1998-1999          2000-2001
     Sub-sample of anticipated loan disbursements                       42                    70
     Loans not disbursed or returned to LOC                              3                    24
     Dollar amount of loans not disbursed or
     returned to LOC                                                 $2,861            $31,082

Based on the results of this review, we reviewed the return of excess cash for award years 1998-
1999, 1999-2000, and 2000-2001.

Direct Loan Excess Cash Was Not Promptly Returned to the Department

ASU did not promptly return Direct Loan funds that were not disbursed to students, thus failing
to comply with regulations governing the return of excess cash. ASU lacked written policies and
procedures and had not established controls to govern the return of Direct Loan excess cash.
There was no supervisory review to ensure that Direct Loan excess cash was promptly returned
to the LOC.

ASU’s retention of excess cash resulted in additional borrowing costs to the Government. We
estimated imputed interest costs to the Government of $75,548, $108,442, and $63,074 on the
excess cash maintained for award years 1998-1999, 1999-2000, and 2000-2001, respectively.

Award Year 1998-1999. After the 1998-1999 award year ended on June 30, 1999, ASU returned
$709,625 of Direct Loan excess cash to the Department ($92,502 in November 2000, $639 in
April 2001, $296,420 in May 2001, and $320,064 in January 2002). We calculated imputed
interest to the Government totaling $75,548 as a result of ASU maintaining excess Direct Loan
cash after award year 1998-1999 ended. Imputed interest was computed from June 30, 1999, to
the date the excess cash balance was reduced to zero.

Award Year 1999-2000. After the 1999-2000 award year ended on June 30, 2000, ASU returned
$1,545,067 of Direct Loan excess cash to the Department ($242,970 in August 2000, $431,049



ED-OIG/A04-B0018                          FINAL REPORT                         Page 12 of 31
and $329,735 in February 2002, and $541,313 in March 2002). We calculated imputed interest
to the Government totaling $108,442 as a result of ASU maintaining excess Direct Loan cash
after award year 1999-2000 ended. Imputed interest was computed from June 30, 2000, to the
date the excess cash balance was reduced to zero.

Award Year 2000-2001. After the 2000-2001 award year ended on June 30, 2001, ASU returned
$1,331,273 of Direct Loan excess cash to the Department ($220,396 in November 2001,
$677,624 in April 2002, $430,871 in July 2002, and $2,382 in August 2002). We calculated
imputed interest to the Government totaling $63,074 as a result of ASU maintaining excess
Direct Loan cash after award year 2000-2001 ended. Imputed interest was computed from
June 30, 2001, to the date the excess cash balance was reduced to zero.

Title IV Funds Were Not Maintained in an Interest-Bearing Account

The Coordinator of Grants and Contracts, who was responsible for drawing down Title IV funds,
stated that he was unfamiliar with the cash management rules that require institutions to maintain
Title IV funds in an interest-bearing account. As a result, ASU did not comply with this
requirement.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA—

4.1 	 Require ASU to develop and implement policies, procedures, and management controls to
      ensure that Direct Loan drawdowns are disbursed within three business days and that any
      excess cash is promptly returned to the Department.

4.2 	 Require ASU to pay imputed interest costs of $247,064 for excess cash maintained by ASU
      retained for award years 1998-1999, 1999-2000, and 2000-2001.

4.3 	 Ensure that ASU maintains Title IV funds in an interest-bearing bank account.

4.4 	 Require ASU to calculate and pay any lost interest as a result of not maintaining Title IV
      funds in an interest-bearing account since award year 1998-1999 to date. The Chief
      Operating Officer should require verification of this calculation by an independent public
      accountant.

4.5 	 Require ASU to participate under the reimbursement payment method and change ASU’s
      origination level for Direct Loans to standard origination.

4.6 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G, to fine ASU or to terminate,
      suspend, or limit ASU’s participation in the Title IV programs, for not disbursing Direct
      Loan funds within three business days and for failing to promptly return Direct Loan
      excess cash to the Department.




ED-OIG/A04-B0018 	                       FINAL REPORT                       Page 13 of 31
4.7 	 Review ASU’s compliance with requirements for cash management, under 34 C.F.R.
      Part 668, Subpart K, for its participation in the Pell and FSEOG programs, and require
      ASU to remit any unreturned excess cash, including interest.

ASU RESPONSE
ASU stated that it had strengthened its policies, procedures, and management controls
concerning Direct Loan drawdowns and that it would maintain Title IV funds in an interest
bearing account. Based on these improvements, ASU asked that the interest liabilities in our
recommendations be waived and that no action be taken against ASU under 34 C.F.R. Part 668,
Subpart G.

ASU also asked to continue participating in the Direct Loan Program under Option 1, and that it
not be required to participate under the reimbursement payment method. ASU stated that, under
the Department’s new Common Origination and Disbursement (COD) system, ASU would be
required to send actual disbursement records to the Department before receiving funds. ASU felt
that this process would ensure that drawdowns are disbursed within regulations.

OIG COMMENTS
We appreciate ASU’s improvement efforts to timely disburse Direct Loan funds, return any
excess cash, and correct related deficiencies. However, we have not revised our
recommendations. The description that ASU provided in its response of its strengthened
policies, procedures, and management controls does not include sufficient details for us to
understand whether ASU’s revised policies will ensure its compliance with Departmental
requirements. In addition, it is our understanding that COD does allow schools to draw down
funds before disbursements are made. As such, COD does not necessarily provide increased
oversight that would be provided by participation under Standard Origination using the
reimbursement payment method.

Finding No. 5 – ASU Did Not Reconcile Direct Loan Funds on a Monthly
Basis
ASU did not reconcile its Direct Loan records with the Department’s records on a monthly basis.
ASU did not have adequate written procedures for conducting monthly reconciliation. Because
the school’s records do not match the Department’s records, the Department cannot account for
the Direct Loan funds or identify potential problems with timely disbursements or excess cash.

Under 34 C.F.R. § 685.102(b)(3), an origination option 1 school, such as ASU, must reconcile
“on a monthly basis.” Based on our review of procedures and records, we found no evidence
that ASU attempted to reconcile Direct Loan funds on a monthly basis until award year 2000-
2001.

The official responsible for reconciling Direct Loan data stated that ASU did not perform
monthly reconciliation during award years 1998-1999 and 1999-2000. The official stated that
ASU’s first attempt at monthly reconciliation for Direct Loans was during the summer of 2000,


ED-OIG/A04-B0018 	                      FINAL REPORT                        Page 14 of 31
for award year 2000-2001. Our review of the reconciliation attempts for January, March, and
June 2001 revealed that ASU had not been successful in reconciling Direct Loans on a monthly
basis.

ASU did not perform Direct Loan reconciliation because it did not have written policies and
procedures or controls in place to ensure that the monthly reconciliation was performed or that
discrepancies between ASU’s records and the Department’s records were resolved. The ASU
staff responsible for performing reconciliation said that they were unfamiliar with the Federal
guidelines pertaining to reconciliation and lacked sufficient training to timely complete the task.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA require ASU to—

5.1 	 Develop and implement policies, procedures, and management controls to ensure that
      Direct Loan funds are reconciled on a monthly basis.

5.2 	 Train personnel in the reconciliation requirements of the Direct Loan Program.

ASU RESPONSE
ASU stated that it had improved its policies, procedures, and management controls to ensure
Direct Loan funds are reconciled on a monthly basis. ASU stated that all reconciliations are
current, training is scheduled with the Department of Education for July 2003, and that ASU is
committed to attending the Historically Black Colleges and Universities (HBCU) Program
Integrity and Accountability Training. ASU also stated that it had employed two certified public
accountants (CPA) in the accounting office and an internal auditor who is a CPA.

OIG COMMENTS
We appreciate ASU’s improvement efforts to ensure that Direct Loans are reconciled on a
monthly basis. The actions ASU describes in its response should help ASU ensure that it meets
Departmental requirements for Direct Loan reconciliation, if implemented.

Finding No. 6 - ASU Did Not Properly Handle Credit Balances on Student
Accounts
ASU maintained credit balances on student accounts and did not always remit Title IV credit
balances to students. Our cursory review of 1,959 student accounts with credit balances and a
detailed review of a random sample of 98 of these credit balances identified $12,053 that ASU
did not remit to 13 students who had credit balances as a result of Title IV aid.

The regulations for handling credit balances, at 34 C.F.R. § 668.164(e) (2000), state—

       Whenever an institution disburses title IV, HEA program funds by crediting a
       student's account and the total amount of all title IV, HEA program funds


ED-OIG/A04-B0018 	                       FINAL REPORT                         Page 15 of 31
       credited exceeds the amount of tuition and fees, room and board, and other
       authorized charges the institution assessed the student, the institution must pay
       the resulting credit balance directly to the student or parent as soon as possible
       but—
       (1) 	 No later than 14 days after the balance occurred if the credit balance 

             occurred after the first day of class of a payment period; or 

       (2) 	 No later than 14 days after the first day of class of a payment period if
             the credit balance occurred on or before the first day of class of that
             payment period.

The regulations at 34 C.F.R. § 668.165(b)(1)(iii) (2000) state, “If an institution obtains written
authorization from a student or parent, as applicable, the institution may . . . hold on behalf of the
student or parent any title IV, HEA program funds that would otherwise be paid directly to the
student or parent under §668.164(e).”

ASU did not have written credit balance policies and procedures, or documentation to show that
it obtained permission from students or parents to retain credit balances. ASU’s failure to pay
student credit balances occurred because the school did not have written policies and procedures
for remitting credit balance funds to students. There was also a lack of supervisory review in the
handling of credit balances.

ASU’s September 13, 2001, credit balance report identified 1,959 student accounts with credit
balances totaling $1.5 million. The credit balances were created by (1) Federal student aid,
(2) check payments, (3) credit card payments, (4) cash payments, and (5) refunds. During the
transition to a new accounting system in July 1996, ASU used the term “GPAY” to identify all
categories of payments made on student accounts that created a credit balance. Of the 1,959
student accounts, 259 were labeled GPAY. Most of these GPAY credit balances had been on the
student accounts for over 700 days and totaled $178,085.

During a cursory initial review of 1,959 student accounts that had credit balances as of
September 13, 2001, we identified five credit balances created by Title IV student aid. These
credit balances had been on the student accounts from six months to two years. The ASU Direct
Loan Accountant responsible for reviewing and initiating the credit balance resolution process
said these five cases, totaling $7,004, were not true credit balances, but were cancelled tuition
charges that should be returned to the Department. However, ASU did not provide any
supporting documentation to show that these cases were not student credit balances.

We randomly selected 98 of the 1,959 student accounts from the September 13, 2001, credit
balance report for detailed review. We traced the balances to cancelled checks and check
registers to determine if the credit balances were properly cleared and paid. Of these 98 credit
balances, 74 did not involve GPAY items. These 74 credit balances were created from Title IV
funds, campus scholarships, and credit and cash payments. All of the Title IV aid in these credit
balances were properly cleared and paid.

The remaining 24 (98 less 74) credit balances consisted of GPAY items. Eight of these 24 credit
balances were created by Title IV aid. These eight credit balances were over five years old and



ED-OIG/A04-B0018 	                        FINAL REPORT                         Page 16 of 31
totaled $5,049. The ASU Direct Loan Accountant responsible for reviewing and initiating the
credit balance resolution process said three of these eight cases were not true credit balances, but
were cancelled tuition charges that should be returned to the Department. However, ASU did
not provide supporting documentation to show that the three cases were not credit balances. The
remaining 16 (of 24) credit balances were either cleared and paid, did not consist of Title IV
funds, or were created by unidentified funding sources.

ASU did not comply with regulations and guidelines governing the remittance of credit balances
to students. Students were harmed because they were not provided funds that were due them.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of FSA require ASU to—

6.1 	 Develop and implement policies, procedures, and management controls to ensure that the
      handling of credit balances complies with regulatory requirements.

6.2 	 Remit $12,053 to the 13 students whose accounts had credit balances resulting from
      disbursements of Title IV aid.

6.3 	 Review all student accounts with credit balances and determine if the credit balances
      resulted from Title IV aid and, if so, return the credit balance funds to the Department or
      students, as applicable.

ASU RESPONSE
ASU stated that it had strengthened its policies, procedures, and management controls to ensure
that the handling of credit balances complies with regulatory requirements. ASU said it had
established a policy to weekly scan credit balances and refund students accordingly and that it
would review the 13 students with credit balances that have been created by Title IV funds and
refund where applicable. ASU stated that it is in the process of reviewing all student accounts
with credit balances to determine if the balances resulted from Title IV aid and, if so, would
return the credit balance to the Department or students, as applicable.

OIG COMMENTS
We appreciate ASU’s improvement efforts to properly handle credit balances on student
accounts. The actions described in ASU’s response should help ensure that it meets
Departmental requirements for credit balances, if implemented.




ED-OIG/A04-B0018 	                       FINAL REPORT                         Page 17 of 31
Finding No. 7 - ASU Did Not Always Meet Administrative Capability
Standards for Title IV Programs
As discussed in Findings 1 through 6, ASU had problems affecting its ability to administer the
Title IV programs. There was a lack of adequate policies, procedures, and management controls
over program operations. As a result, ASU did not always meet the administrative capability
standards for Title IV programs.

Under 34 C.F.R. § 668.16, to continue participation in a Title IV program, an institution must
demonstrate that it “is capable of adequately administering that program under each of the
standards established in this section.” Among other requirements, an institution is considered
administratively capable if it—

• 	 “Administers the Title IV, HEA program in accordance with all statutory provisions of or
    applicable to Title IV of the HEA, [and] all applicable regulatory provisions prescribed under
    that statutory authority . . . .” 34 C.F.R. § 668.16(a).

• 	 “Designates a capable individual to be responsible for administering all the Title IV, HEA
    programs in which it participates . . . .” 34 C.F.R. § 668.16(b)(1).

• 	 “Communicates to the individual designated to be responsible for administering Title IV,
    HEA programs, all the information received by any institutional office that bears on a
    student’s eligibility for Title IV, HEA program assistance . . . .” 34 C.F.R. § 668.16(b)(3).

• 	 “Has written procedures for or written information indicating the responsibilities of the
    various offices with respect to the approval, disbursement, and delivery of Title IV, HEA
    program assistance and the preparation and submission of reports to the Secretary . . . .”
    34 C.F.R. § 668.16(b)(4).

• 	 “Shows no evidence of significant problems that affect . . . the institution’s ability to
    administer a Title IV, HEA program . . . .” 34 C.F.R. § 668.16(j).

• 	 “Does not otherwise appear to lack the ability to administer the Title IV programs
    competently . . . .” 34 C.F.R. § 668.16(n).

ASU did not always administer the Title IV programs in accordance with all statutory and
regulatory requirements: it did not pay refunds correctly to students who officially withdrew,
return or timely return refunds to the Department, have a system in place to identify students
who did not follow official withdrawal procedures, timely disburse Direct Loan drawdowns,
timely return Direct Loan excess cash, reconcile Direct Loan funds, and properly handle credit
balances on student accounts. We attributed these problems to staff turnover and a lack of
adequate policies, procedures, and management controls. As a result, ASU did not always meet
the administrative capability standards for Title IV programs.




ED-OIG/A04-B0018 	                        FINAL REPORT                          Page 18 of 31
The OMB A-133 audit reports issued by the Office of the State Auditor for FY’s 1998, 1999, and
2000 also included findings related to ASU’s refunds, cash management, and reconciliation.

RECOMMENDATIONS

We recommend that the Chief Operating Officer of FSA—

7.1 	 Determine ASU’s current ability to administer the Title IV programs in accordance with
      regulations.

7.2 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G, to fine ASU or to terminate,
      suspend, or limit ASU’s participation in the Title IV programs, based on ASU’s current
      ability to administer those programs.

ASU RESPONSE
ASU stated that a current review of its ability to administer the Title IV programs in accordance
with regulations would have positive results. ASU stated that it had developed and implemented
policies, procedures, and management controls to eliminate the shortcomings cited in this report
and that it had placed trained staff in positions to enforce these policies, procedures, and
management controls. ASU said it would engage in the Self-Evaluation Guide for Institutional
Participation in Title IV and Other Federal Programs. ASU also requested that no action be
taken to fine, terminate, suspend, place on reimbursement, or limit participation in Title IV
programs. ASU stated that it is the only provider of higher education in rural southwest
Mississippi and is totally committed to compliance for the benefit of its students and the Federal
Government.

OIG COMMENTS
We appreciate ASU’s recognition of the shortcomings identified in the audit and the
improvement efforts taken by ASU to better manage its Title IV programs. We have not
changed our recommendations. As we have recommended, the Chief Operating Officer for
Federal Student Aid should make a determination regarding ASU’s ability to administer the
Title IV programs and take appropriate action under 34 C.F.R. Part 668, Subpart G.




ED-OIG/A04-B0018 	                       FINAL REPORT                        Page 19 of 31
                                 OTHER MATTERS


ASU Did Not Always Include Fee Waivers When Packaging Financial Aid for Employees

As described in the 2001-2002 Student Financial Aid Handbook (Volume 1, Chapter 7), the
Department generally interprets fee waivers as one type of financial resource that should be
included as estimated financial assistance. ASU did not always include fee waivers for faculty
and staff as resources when determining financial need for ASU employees. ASU employees
who attend the school were given fee waivers that paid for up to two classes per semester.

We identified 25 students who were also ASU employees that received Federal aid. A review of
these employees’ 2001-2002 financial aid files revealed that fee waivers were not included as a
financial resource when determining financial need for 19 employees. Our review of the student
files for these 19 student-employees revealed that one employee’s Direct Subsidized Loan
should be reduced $1,818 as a result of the fee waiver not being considered during the financial
need review.

We notified the senior financial aid counselor that fee waivers were not considered for 19
student-employees. The counselor reviewed the student files of the 19 employees and also
determined that one employee’s Direct Subsidized Loan should be reduced $1,818 as a result of
the fee waiver not being considered. The counselor took action to reduce the employee’s Direct
Loan by $1,818.


                                    BACKGROUND


Founded in 1871, Alcorn State University (ASU) is a Historically Black University supported by
the State of Mississippi. ASU is located in Lorman, Mississippi, and has an enrollment of about
2,900 students. The Commission on Colleges of the Southern Association of Colleges accredited
ASU to award the Associate, Bachelor, Master, and Educational Specialist degrees.

ASU participated in the Direct Loan, Pell, and FSEOG programs. Approximately 73 percent of
its students received Title IV aid for academic year 2000-2001. For the years ended June 30,
1999, 2000, and 2001, ASU awarded approximately $39.6 million in Direct Loans, Pell grants,
and FSEOG funds to students. ASU participated in the Direct Loan Program under School
Origination Option 1. Under Option 1, the LOC requests Direct Loan funds from GAPS based
on information provided by ASU, and the drawdown amounts and disbursements are borrower-
specific.




ED-OIG/A04-B0018                        FINAL REPORT                       Page 20 of 31
              OBJECTIVE, SCOPE, AND METHODOLOGY


The purpose of the audit was to determine whether ASU administered the student financial
assistance programs in accordance with Title IV of the HEA and with applicable regulations.
Specifically, we reviewed compliance with the Title IV regulations regarding (1) the calculation
and payment of Direct Loan and Pell refunds; (2) Direct Loan cash management, reporting, and
reconciliation; (3) student credit balances; (4) student eligibility; and (5) general requirements for
commissioned sales.

We accomplished these objectives by reviewing laws, regulations, and policies applicable to the
Title IV programs. We interviewed ASU officials from the Financial Aid, Business, Grants and
Contracts, and Registrar offices. We also interviewed Department officials from FSA Case
Management and Oversight and from the Recipient Financial Management System (RFMS). We
reviewed various financial and academic reports provided by ASU and FSA. We reviewed
policies and procedures used by the school for managing its Title IV programs. We also
reviewed Office of Management and Budget Circular A-133 non-Federal audit reports submitted
to the Department for the years ended June 30, 1998, 1999, and 2000. We also utilized
computerized Departmental systems, such as the Loan Origination On-line System and the
National Student Loan Data System.

We reviewed all Direct Loan and Pell refund calculations for award years 1998-1999,
1999-2000, and 2000-2001. We used random sampling to review credit balances and judgmental
sampling to review Direct Loan disbursements and commissioned sales. The results of the
judgmental samples may not be representative of the entire population.

To test whether ASU timely disbursed Direct Loan funds to student accounts, we judgmentally
selected 10 of 167 drawdowns for award year 1998-1999 and 4 of 137 drawdowns for award
year 2000-2001. For 1998-1999, we selected one drawdown between $1,000 and $10,000, two
drawdowns between $10,000 and $100,000, and seven drawdowns greater than $100,000. For
2000-2001, we selected one drawdown less than $100,000, one drawdown between $100,000
and $1 million, one drawdown between $1 million and $2 million, and one drawdown greater
than $2 million. From the school’s anticipated loan disbursement rosters, we judgmentally
selected student loan disbursements from each page of the 1998-1999 disbursement rosters and
every other page of the 2000-2001 disbursement rosters. As a result, we selected 214 of the
2,127 loan records for award year 1998-1999 and 141 of the 3,034 loan records for award year
2000-2001. To test the return of excess cash, we judgmentally reviewed a sub-sample of 42 of
the 214 students whose loans were not credited to their account for award year 1998-1999 and a
sub-sample of 70 of the 141 students for award year 2000-2001. The sub-samples were
generally obtained by selecting students whose loans were not credited to his or her account and
selecting higher dollar loan amounts. Based on the test results of excess cash, we performed an
analysis of the return of excess cash for award years 1998-1999, 1999-2000, and 2000-2001.




ED-OIG/A04-B0018                          FINAL REPORT                         Page 21 of 31
To evaluate the remittance of credit balances for award year 2001-2002, we performed a cursory
review of the 1,959 students accounts that had credit balances and randomly sampled 98 of the
1,959 accounts for detailed review. To evaluate commissioned sales, we judgmentally selected
for review employee contracts for 12 ASU administrators, department heads, and staff. We also
judgmentally selected payroll records for eight admissions/recruitment and financial aid staff for
review. The judgmental samples consisted of upper-level management and key operating
positions: Vice Presidents, Directors, Assistant Directors, and recruitment officials.

To achieve the audit objectives, we relied in part on computer-processed data contained in
ASU’s Banner accounting system. We performed limited testing of disbursement data by
comparing source information to the institution’s data. We also compared ASU’s data to the
Department’s data maintained by the LOC and RFMS. Other than the concerns noted in the
Audit Results section of this report, the Banner data was sufficiently reliable for the purpose of
our audit.

We reviewed award years 1998-1999, 1999-2000, and 2000-2001 for Title IV refunds and
repayment of excess cash; award years 1998-1999 and 2000-2001 for Direct Loan reconciliation
and other cash management practices; award year 2000-2001 for commissioned sales; and award
year 2001-2002 for student eligibility. We also reviewed the September and November 2001
credit balance reports to review the remittance of credit balances to students. Our audit work
was performed during the period July 2001 through January 2002. A conference was held with
ASU officials on March 19, 2002, to discuss the audit results. Additional audit work was
performed during the period March 2002 through December 2002. An audit exit conference was
conducted with ASU officials on May 13, 2003.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.


            STATEMENT ON MANAGEMENT CONTROLS 


As part of our audit, we gained an understanding of the system of management controls, policies,
procedures, and practices applicable to ASU’s administration of the Title IV programs. Our
assessment was performed to determine the level of control risk for determining the nature,
extent, and timing of substantive tests to accomplish the audit objectives. For the purpose of this
report, we assessed and classified the significant controls into the following categories:
(1) calculation and payment of refunds, (2) Direct Loan cash management and reconciliation,
(3) student credit balances, and (4) student eligibility.

Due to inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the management controls. We
identified no deficiencies with student eligibility. However, our overall assessment disclosed
management control weaknesses in each of the other control areas mentioned above. These
weaknesses are discussed in the AUDIT RESULTS section of this report.




ED-OIG/A04-B0018                         FINAL REPORT                         Page 22 of 31
ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





                                                       AL CO R N STATE U N I VER S ITY
                                                  A I.CO"'; STATE , M I U ISS ll"' . 3 '1 09 6 · 9 4 [ll


                         ....                                         JllDC 11. 2003
    o ,,, c . ~.,.,, ,          ' ~ .N T
                                                                                                                   T1,..,,,O,,.:
                                                                                                                160 ll H 16 1l1

                                                                                                                           .U·
                                                                                                                J6011 HI · lU i




                   Mr. J. Wayne Bynum
                   RegioIJllJ inspecklr GencraI for Audit
                   U.S. Ocperunenl ofEdul;glion
                   Office of htiJX!:(:tur General
                   6 1 FUr5)'th Street, Room. Im1
                   Aitanla, GA 30303

                   Dear Mr. Bynum:

                              In response 10 )'OW' lener dated May 14,2003, please find e.oclo!!Jal AIcom State
                   University' s repfy to )'Our fmd~ and recommendatioRS. We t.ve answered those
                   fu:.clillg:i and recommendaliom wiIh emphasis showing 1halour ~n1 oftbe Tide
                   IV p~ has been strengthened to properly admir:tistcr such funds. Hopdiilly, Ibe:M:
                   re5pODSeS have adoqu3t.ely ~ !he coneems of the report.


                                    If you need fUrtbc:r assistao:e,. pIeuc do 1101 hesUIe 10 C(ldacI me.

                                                                               Sincerely.

                                                                               c£r-Lf~1-
                                                                               --
                                                                               Clin&on BriAuw. Jr.




ED-OIG/A04-B0018                                                   FINAL REPORT                             Page 23 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





     ALCORN STATE UNIVERSITY (ASU)
                  QFnCE OF lNSI'ECTOR GENlUUL DIUFT AUDIT UPOJrT
                     Writ/til C__""n ... F;,,~K'             .,./J
                                                 lI.tc.",...n..tItI#lU

     RtsoonK (0 Bccol!meadatiQIs;



     1.1   ASU bas .cmaglhmed its policiel., prueecIuHs. and mmapmml coatrols betwcca di~
           10 cnsun: m.t wi~ IIIIdmt:s . . i4cnrificd IQ(I Iha! Titloe IV tdtmds ~ eakII'*d
           a=nIdy aDd ICfWDecI 10 !be Dcpanma:!I. A shIOml who dcsiRs 10 witbdra'II from !be
           university during tho: CI,IUJ1IC of. _ _ 0'1" IiWDIIICI" lePion I1IU*t IItICIIJ1: I Notificuiop (If
           Total Wilhdrawal from the Office of CoIINdin& aDd TcsIin& ThciOfficc: of Acadmric
           Affain will tenia COlIIpiIlllioa of wJtbdo." ill:! 10 !he Dualncsi Offoa: wvctJy. 1be BIIIiDQli
           Offic:e will bqin the RZT4 pma:ss by """",*,bla the ~oa ofwilbdrawals and !be
           Ru$:inrss Offoccoopy ,,{lhe Toul Wilbdn""a11Onn. Aft« the end ofotdl. te:rm. CDIIIUCliDc
           and TcstinS andlbe Off"IC"of Acadenric AII'aU$ will provide the Bllliness Oirl"". liJI of all
           stlldart:r; thai withdrew d1Iriq that t=D.. The Businc:. Office: willrcvicw tm. md          "r!be
           -.:rm witbdnlwal listim, for f\wtha~lDd.:lj~


     ".
     1.3   ASU will mum Tille lV {...cIs fOr lnuoi.ecl ",fund cakuJationll (Ie JtudmQ; wilbdnw1I or
           R:fi.Inds DOl: uLcu11ted for the audit ~ lpCcifiod. ibia amocmt ia SIl,3S6.

     1.4   ASU asks thai the i:mpuIcod inIereslcoa be wUvaI due 10 the r.:t \IuII1his ~ Iw beea
           corrotfod and all appiOj"i.tc IIlCaNU win be tUm 10 cmun;: \lid Iinure rd\mds at:
           c:alcublod ..x:oniing to Ihc CIIl'r'mI R2T4 policy_ ASUpa-.:d illvolwd in tbcproct:U will
           1IftIIo:rgp......al tniniDa IOmsure blow1o:d., ofrquJalionl-.i lhepooc:ea will be ,,,;".. «1
           by the Upinnity'slnlemal Aliditur.

     Find., No.. 2· ASU Did Not Alway_ Rem" ... TlIUIy Rd_n DhrtlA..... d Pen Ref" ....
                    r. Ike DqJan_t.
     2.1    ASU hqatrc:rl&lbeDcd ;1& pOIici.., pmao:t.re., ..... mIftI6GIlmIcoalnllt 10 CIIIWR IlII1 TIlle
            IV refunds .., oadc:withius tho:: 30-da.)' raquim1 1imc hIIIe and comdly rql(rtcd to the
            J)o:pan:ml:ru. (See Anaclunenr 2.1- RZT4 Poliq)

     2.2    ASU .....lI rcb>mTit1e TV fun<b for rd\mdIcal"'"         $   1bvtDOtpaidMoommittcd kl rapoase
            I<)rccommendatio:a 1.3.




                                                   p.' "rs



ED-OIG/A04-B0018                               FINAL REPORT                                   Page 24 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





   2.3     ASU .. ili llilmil the proper Di.-..:t Lom adjustment"'~ 10 the LOC for the 1611toJC1ents
           who wilhd:ew daring lwani yec 1998- 1999. 0Dc:c docvmcnWiOD oftb<: 16 11tUdet:a hu
           beCfI-.cived by ASU, the LOC I qACS<:iiWi~e Aa&dique wtntcn ....nbeQO!M.....m 10 gWX
           ASU in adjuItinJ the roconb...


    2.4    ASU asb tIw DO -ction be tum to fiDe, tc:rmm.e, 1~ place on ,eimbllrscmcm, or
           litnit the ~ of ASU in Ibc Ti1lc IV ptogll ..... ASU has impklrIcnccd tho: RZT-4
           policy aDd has sicncd "" a total of 16 key 1"'" ...",1 fionI the 6naori·1 aid office'" the
           bIninc:M offioe 10 n:ccM: Jdditiorlal traiaia.g Ihrougb the ~ of ~ This
           tnmins w ... *J*ifically dc:siped for HDCU KbooIL The tniDing wiD l:Iko p\tc:e JIIIy I S-
           16 in C1-':..t..l",- U S.


    fudjq N.. l- ASU Did N.t IJIlft A Sy.tmo. Plact: •• loIaliJ"y saulaa WH DId Nil f ......
                 0IIirbI WItW,..wlll PI oc:HUIII

    3.1    ASU hal deV'!:IOped aDd impkmented policies, pro=hm;s mel manaacmenl rontrob 10
           itkDlify ItuOeGU who do ftOI. of5cially notify the ........,. orlhc:i.r widulrawel. aDd dctuwiuu
           wbctho'Trtk: IV rdUDdI H"C due: IOtbc~. Afta- tl", tnIofeliCb em.. tbe JomW
           Vouchc:r AccounlaM ill tho: 8m;""'" Offiee will rtqllell a <:IOpf of alIlICIIdeat:I ........ 'Dc a
           0.00 JIIadc point ........ The I.i. will be ,efietlted to detem:&iGo ira &tuGcD. lIDOfIK:i&lIy
           Mthdrew Dun !he univftty. The R1T4 procao;. will bcgia mel the student will be DOtificd
           ao:ronfurgIy.                                                -

    32      ASU will cak:nWe "f'PIic.b1e Title IV n=fvnd.1O!be ~ !oJ &tudcW whir reccm.t
            TItIc IV fUDIb md _ffoeOally withdRw &m. seboolllirrcc .w.d ~ 1998-99. ASU"IriII
            Un:- the ~ vorifMM!. by at indep.."doSlt publk Kc:ouatIIlt. ...". time mme for all
            ealcuJ-.io... and vm6ealion by an iadtpcndcrU public IIQI;OwrtaDl QlIIIId posaiblc iKe nine
            IIIOIIlI1a 10 COIIIplctt..

     fiad;a. No.. '"" ASU Old N.i Ti..u,. 1NdI._ Dlreo:t Lou D,.w""w&l orTl.dy Rdani.
                  E.lceaCnio

     4.1    ASU Iw mmgtbmed ils policia., procedures. md mana~ control_ 10 ~ Ituol
            Dim:t l..om dnwdownI _ cIi.Ibunm within th= bulilJCSS days md IhIt my 0 _ c..aa
            • protnptly rdIImIx! lO the DtpoMIIIKlL The Depuunc:ol is now \ISi:Ds th£ COD I)'IIan.
            School. IhM In: 0[Iti0n I Drigiaation..;:n no ~...,n..r. fuPd$ ClUIbc: bMU of IDtid~
            ~ obIc a>d _ ' " roc- awvcls. School ",_.cad. actual di!otNncmcnt r-w
            Won! mco:iYing money. ntis procca willlCflSllJe ""'l dnowdowm are disbursed widilir
            rcguloliom. Monthly mcctin&:s have been CSlJoblishod bctwCICOI thr: ""'i_ oIIicc IIIIl ibc
            Iinan<;:W aid office Io .,........~ r«urn oCne. . CMh. ~ V. P. for Bmu- AffIin
            will o'mXC this pm::aa 10 _         Iimc:IineI$.

                                                  P. 2 0fll




ED-OIG/A04-B0018                                FINAL REPORT                                    Page 25 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





     4.2    ASU asb th:it i ~lUed i1>!crat be_ivcd dueto the r~ !hili esoct:\I cash _ n:rumed to the
            Oqui bOWl ASU eltpcricoccd staff 1uJnDo¥cn; durilll the 1991- 1999 and 1999-2(00 )'ea'
            ... hic:h left pu_~1 without proper o-ainib! .nd pi6ano;>c b I'ClIInIiag eltc:ca c:ab in I
            timely mlUl'''''". All offICeS are _ full y tniDed with U'IIiDed pcnonncl.

     4.)    ASU wi ll mainhID Titl~ N funds ill m intl:n:$t-beariP8I11;Q1,)UD1.



     4.5    ASU   ~ thll.        Option I   urin8 !be COD ryaau be rctainaI.   ru   ~   in 4.1. the COO
            ~ will mIlln> 1hII..::cue.I ~t                  rco;oro. ucfGXiyCl.i bcfOJc ASU ~ dmoodowu
            Dim:t Lola timd5.

     " .b   ASU ash Ih.ar. no IoCtiOO be taken 10 futc. \emtina.le, suapeDd. place ou rcimburscmcot, Ill"
            limit pw....,.. ..
                          tion in the Tille IV pI"Opm due 10 till: fId tIIU I kIID COWIeior is IIOW
            assigned. 10 WI'lrIr solely -.rith proeesinr, of ........ This cnsuns comptiarJl%. AIIo.,!be
            Uni~'1 IIIlcmaI A..titor will do rqu.. <XJIIlPIiIIIce chocb..




     Fbdll, Ne. S- ASU DId. Not Rtceee& DIn:d Lou. F. .dI_ I               ~,."     8 __

     S.I    ASU !III improved ill policies. proccd.-s. 01. ~JtI:mIml C:0QIl"01I; 10 ClI.IUI1I ~ 10.,
            fiIndI 11ft: f!:COIJciIcxI on I momhfy basil. The klm C01IIlIcior, !be asaistm1 dircaor of
            .o::oo,nti", for ~ !hecomptrolJa-. and thediracloroffua:ncial Del I!"eworUla loplla
            10 ~ teODrICiIiaK 0II11IIOIldlly basis ill done.. AU rocoociliatioos In: _     curtail.


      S.2   Tn..inin& is sehcduled with the De:PIJ1lIlCDI of &hoa.tiou foe- JIIIy U · 16, 2003.   .-\SU is

            End niDIC ItIff pcnonod Ii"om fUJ&Dew
            office. ASUbuCll'lp1o)e:l"'" CP
                                                        _inri
            committed 10 11SOIdill8111e IIBC'U Prosram hd.epUy'" AI:.oouDlltbilityTrainio&- We: win

                                                    Non.wr.
                                                            XYo:r\.we puMKAd from the: bb...  ·_
                                                                the _onrill&officeaDd .. iDM:malailor
            ...ooili.CPA...      Tbe$c~baYC_~ OIIt staff.




      6.1    ASU has ~ itI pOlicies. proc:edura. and maw.gcmc:nt ~ 10 ensure dill the:
             hltndLing of c:redil balllIOClcomp6et..nth "'l"111Ol"y ~irancnta. Utilizing the BANNER
             softw_ S)'Ilcm, ASU hu cmbIishcod I policy 10 wcckJy 8I:an mo1it balmca aDd rd\IDd
             Ihdml$~.

      6.2    ASU will review the: I) ttmenl:s wicb =-!it b&IancG.tpeci6ed that !lave bea) crcaIod by
             Title N 1\IIlda: ar.I will refund ....~ applicable.

                                                      , . . 3 0fl




ED-OIG/A04-B0018                                   FINAL REPORT                            Page 26 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





    6.3    ASU is ~um:ntJy in the pI'OOC$Io of~ing all sllLden\ ao:COWIU with cnd.it bal_ 10
           ddc:nninc: iflhc bobnc:Q """,hal from Title IV ald.1Dd: if' .... ...-iII .ewnolbc gWil bal.­
           ItI!he 0qJ.unmt (If "''''''''IS, . applicable.



                   ........
     F'mdDc NL 7· ASU IMd N~ AI....,. M eet A4~e C.pablll.ry SI.. d-.rds f orTIde IV




     7.1   A CIlIRnt I'C:Tic.. of ASU', alnliry 10 adminiacr tbe Title rv PIQgr&IILI in a.;w..:bl.nl:;o with
           rcgulationl ";\1 have poWve ~ ASU his devdoped IDd: i:aplcmc:ntcd policies,
           ~, iDd 1I>.Ir:Iaga.-ICCdnlbtoclinrinatelksbou......inspra-iously si&l*d- ASU
           Iw pIKed troiDcd statrilr. poIitiona 10 CIlforce !l..,.., policies. ~ mel m.mipllelll
           c:cmtmb. ASU";U also CIlgage in !be Self.EvallIiOOn Guide for InIII:imtioaaJ pnripati(lll.
           in Tille IV md ()d..,.- Fcdcnl Propua. This sdf-cYalualic:ln guide will point 0011 ASU"I
           stn:o&JhI: aI ..,.n lIS ~.ad allow ASU 10 ....... adnoini.tnti..., c:apobility ~
           far Title lV procrams.

     7.2   ASU asb apin thal 00 actioo be IIkm to fine, Ienninate. Suspelld, pleccon MimbunemcDt,
              limit partic:ipaliOll in the Tille rv pIOJI'MIL The odf-cvtilLatioa 1001 will. provide: I15dial
           CII"
           infonnatjoo !Dr administnlive ponG_I to amriru:ImIy ~c ia orderfor IbI: uniWQily
           to ploval1 ~ Tille rv Propra. The Ullivenity • tba 0Gly pnmda" ofltiper
           educalion in  ruru   SOIIlhwcst MiDiuippi it; loWly OOIIIU1ittw 10 COOIptiancc for the bcadil
           tlfits SUldcnts 1DCI !he roden! govcmrnGnL                   '




                                                  hgc:4ofl




ED-OIG/A04-B0018                               FINAL REPORT                                   Page 27 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





        ATTACHMENT 2.1

                   R2T4POLICY




ED-OIG/A04-B0018        FINAL REPORT         Page 28 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 





                                   eRN STATE UNIVERSITY
          R£TURN OF TITLE IV FUNDS IR2T4} POLICY



       The Higher Education Arncodmerrts 01 1996. PlJbllc Law 105-244(the
       Amendments of 1998) StJbslarltialy changed 1he way funds paid toward a
       student's edl.lC8tkJn are nalded when a 'eOpieIot of 1lJe IV fundi withdr.r.vs from
       school. AI schoob __ required '" JnpIemenIIhese ~ by 0dJ:tIer 7,
       2000.

       A statutory schedule iIIl.ISOd to detem1ine the amount cl11Ie IV funds a studenl
       has aarr-l as of the date he Otf she ceases 8Ueoo.noe. The amount of Title N
       ~m assisl8nce eemad is baood on the amount of time the dJdent 6pEiIlII in
       acadomic attendance; it hal roo IlIIatluiocloip '" the SlUdent's IncumId in&1itutionaI
       "".....
       Up 1hrough the 60% point in each peib:I 01 enlO~. a pro rata schedule II
       used to detorrrine 1he amount of TItle IV funds tNo student hal BfiIfTl8d at the Ina
       of wi1todraWaI. Ntet the 60".lIo pc:W1t in the payment period or pwtod of eol'Oll.IeIlll.
       a siudenI has earned 100"f. of the llte rv tJnds.

       If a rocIp/ent 01 SFA grant or loan fund . ....ithdr&WI from a Id\ooI after beginning
       altendance, \he amount of SFA ~nt or loan 8S$l8tanc:e earned by the student
       rnJ"I'It be deklo IO"H'Id.. If the an'OUnC dllb.orwd to the student II groalef than the
       amour( the stuc:Ient earned, unearned ~rdl must be returned.. l1Ie IV fund:!; an!I
       awarded to a student at Alcorn State l.Int..fnit)' undet" the assumption !hat the
       student will attend acliOOI for the entire period for which 1he aa&ist8oce ill
       awarOed. When a audent withdniws. 1hIo student may r.l 10"981" be eligib6e for
       the fUI amount 0( Title IV funds that the student ....as originally schedu led to
       receive.

       Ak:om $ta18 llII~ Is .~ '" provide Slud&nCa with the detab of IlII
       rvfund policies appicatIIe at the Institution as wei as infom1atlon oro the Tille rv
       program ntquirements for determining Ihl'l amount of Tille IV IUndI a s\!,ideot hilS
       earned whl'ln he or she withdraws.




                                              I'q:e 6 on




ED-OIG/A04-B0018                            FINAL REPORT                               Page 29 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 


         1. Notification of Total Wlthdr_aI

            A studeR IIIho desires to vtiIhdr:Jw f rom the urVvorsity during 1he oourse of
            a semest9t or summer sessiorI rrusl S8ClJre 8 Ndifiultiol, of Total
            Wi1hcIrawai fn;IITI the 0fIica of Counselng and Testir\g. ThIs singIa
            dcxunent wiI initiIM the wihdrawal piOQIA . A a;!py of 1he total
            withdrawal form is distributed \0 Ihe Registrar Offic;a, BUSiness OfIIoe,
            StOOent Alfan, Fmancial Aid, a M Acadomic A1'ftWs.              Tne Qffio& 01
            A.cademic Affalnl wiI GeOd (I cortl'iIOIlon of witIl«awais Ii3t to the
            BusWloss 0f6c0 wccIdy. The Business 0fIice wil begin the R2T4 PfOOIISS
            by (.01, . .1'10 Ihe compilation of withdrawats and the BusineA Of!k:e copy
            of Ihe 101.......108owa1 form.

            If a return of Nods is due by !he iJlWef3ity. Financial Aid makes
            odjus1mentl on lie 3tudenf. ecoourrt in Banner lor the 8fnOU1lt of refund
            to be paid by lt1e UnH8I'Sity and forwards a caocellaolioo list to GmU and
            """"""'-
            WoltJin 30 day. of the ~, the RnanciaJ AId Offic:c notifies the
            student of any Altum of funds duo by the Student. The iGttM glve$
            sWdems two opcions regarding repayment and instructs the 1ItudenI on
            wheRI to send payment of any federal gran overpayments.

             The student Is allowed 45 days to contact 1he Fnancial AId Office

             -,          ~tudent's portion of nIe IV funds tNt must be ~mad (it"
             lVgIIoting the



          2.. If U. . tudent contact. the financial aid             ~       wlthln 45 . , . aMI
              sleets to .. nd fuI.,.,-m. nl to the sc;hool:

             The FnanclaI Aid Office IlKlOlvos !he payment and bwa..;b the paymenl
             to the 9.JsIrIen Offloe 10 be processed be5ed on the requftmuntI by ED.
             {Tl"Ie ~ aid office wiI reduce the student's award (by 8fllering a
             negatiYe dil.~) and the Busnese omce wiI adjust Ita InI"dtuIIonaI
             I~ and the ftJdent"$ accounts. Tha Financial Aid 0fIice canoeb the
             aid on !he BlUdenfs account lor the amount of !he refund repaid by the
             sU:lent and fotwards a cancell.tion is!: 10 Grants and Contracts.

             The ~ ac:z;epts and posts the                       sb:Jdenl·. payment
             GIants and Contracts a'OK rofereooos tria IiX wilt! 1ho Q)pies of
             Treatment of T111e tV funds and initiates an authorization of paymurrt for
             t he Relum of Loon fuooa Of Inili.. tos   iIt1   elcctttinlc retu rn 01 fI.nIs for PELl.
             tY FSEOG IU'llb.




                                            p..,10(8




ED-OIG/A04-B0018                         FINAL REPORT                                      Page 30 of 31 

ATTACHMENT – ASU’S WRITTEN RESPONSE TO THE DRAFT REPORT 



         J . If the student toI1t.tcts the financial akI offtc........In -t!I d1lYS MCI
             indicates tht h. or I5he carutOt repay hts Of het' debt In full :

            The school ....1 immediately report tho.     ~ to !he NatiOn.
            Studvnt loan O.. ta SY$1em (NSLDS) a-MI refer the overpayment b ED
            c:oIIedIons. Tho school 'Hill provIOo the student IIriIh the phMe number. e­
            moll, and IX)$taI address lor ED coIections.
            A student earl contact ED Col*tions by calling 1-300-621-a115 or by
              sending .. n e..fNIIllo   DCSJtE~.gov        OI"WTIte ED Colleetlons at
                                        1he rollowlng add"..:

                                   u.s. DepwbiWWrt of Fd'ec:'ItiM
                             Stu6ent F~ AHlIbnoe Programs
                                        P.O. BOll 4222
                                     ,__ City, I_a 52245

         .. "the   studBnt""" &0 eonteet the UrWenIly lllrithin 45 d.ya:

             The rWlanciai Aid 0fI0e ~ and mails !he OIIerpoyment RefenaI
             Form. Copies are diasemiAated ID the appropriol8 offices:




                                           Page8d8




ED-OIG/A04-B0018                          FINAL REPORT                          Page 31 of 31 

